Case: 20-3483

Document: Z2-1

Miea: \<a i n^kj/lv

rayc. i

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT'
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts, gov

Filed: December 17,2020

-i.

Ms. Hakimah Jabbar
2339 Taylor Avenue
Columbus, OH 43211
Re: Case No. 20-3483, Hakimah Jabbar v. James Graham
Originating Case No.: 1:20-cv-00245
Dear Ms. Jabbar,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Julie Anne Connor
Case Manager
Direct Dial No. 513-564-7033
cc: Mr. Matthew Joseph Horwitz

Mr. Richard W. Nagel
Enclosure
Mandate to issue

Case: 2U-34B3

Document: 2:1-2.

Hied: rznnzuzu

rage: 1

NOT RECOMMENDED FOR PUBLICATION
No. 20-3483
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED

HAKJMAH JABBAR,
Plaintiff-Appellant,
v.
JUDGE JAMES L. GRAHAM,
Defendant-Appellee.

Dec 17, 2020
DEBORAH S. HUNT, Clerk

)
)
)

)
)
)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF
OHIO
"V. '■A

ORDER
Before: COOK, WHITE, and MURPHY, Circuit Judges.
Hakimah Jabbar, a pro se Ohio resident, appeals the district court’s dismissal'of her civil
suit against United States District Judge James L. Graham. Jabbar moves for the appointment of
counsel. This case has been referred to a panel of the court that, upon examination, unanimously
agrees that oral argument is not needed. See Fed. R. App. P. 34(a).
Jabbar’s case arose from a criminal forfeiture proceeding before Judge Graham. Jabbar
filed a third-party petition claiming an interest in property that was subject to the district court’s
preliminary order of forfeiture, namely $28,223 in drug proceeds. Judge Graham granted the
government’s motion to dismiss that petition for failure to comply with’21 U.S.C. § 853(n)(3),
because the petition was not signed under penalty of peijury and its “vague allegations [were] not
sufficient to assert the existence [of] any legally cognizable property interest on the part of Ms.
Jabbar in the forfeited currency.” United States v. Forrest, Case No. 2:17-cr-158 (S.D. Ohio
Jan. 16, 2018) (order).
Days later, Jabbar filed a petition for a civil stalking protection order in Ohio state court
against Judge Graham. Judge Graham removed the case to federal court, and the district court
;.- •
■•■S* •'n.i

uase: zu-x34«c5

uocumem:

rneu: i^/ ii/^u^u

rayo. ^

No. 20-3483
-2granted his motion to dismiss on judicial-immunity grounds. JabboA v. Graham, No. l;18-cv-95
(S.D. Ohio Aug. 17,2018) (order).
Meanwhile, in July 2018, the district court issued a final forfeiture order granting title over
the currency to the government.

United States v. Forrest, Case No. 2:17-cr-158 (S.D. Ohio

July 30,2018) (order).
In January 2020, Jabbar filed a second petition for a civil stalking protection order against
Judge Graham in state court. The petition claimed that Judge Graham “used gov’t agencies and
officials to steal my title, rights, and judicial claim to the forfeited property of Deandre Forrest”;
“used agents for local churches to send mail to my house, that was meant for the prosecutor”; and
“used these and other source[s] to build a dossier against me, this makes me feel like I am in
immediate danger.” The petition also stated that Judge Graham “has refused to hand oyer DNA
analysis reports,” and “has used other people[’s] DNA illegally in a vile sexual mann[e]r.” Judge
Graham removed the case to the United States District Court for the Southern District of Ohio
under 28 U.S.C. § 1442(a)(3). He then moved to dismiss the case as barred by judicial immunity.
A magistrate judge recommended granting the motion to dismiss because Jabbar’s petition
sought relief against Judge Graham for judicial acts in a case in which he had jurisdiction. Jabbor
v. Graham, No. l:20-cv-245, 2020 WL 1649802 (S.D. Ohio Apr. 3, 2020) (report and
recommendation).

Jabbar filed objections, which'quote'from and Otherwise recount the

proceedings in the Forrest case. Jabbar asserted that Judge Graham committed errors and imposed
what amounted to an excessive fine in the forfeiture proceedings. She argued that Judge Graham
violated her civil rights while acting under the color of law, and thus that he was not acting in his
judicial capacity. The district court overruled Jabbar’s objections, adopted the magistrate judge’s
report and recommendation, and granted Judge Graham’s motion to dismiss. Jabbar v. Graham,
No. 1:20-cv-245,2020 WL 2044090 (S.D. Ohio Apr. 28,2020).
'V

• 'J -

Jabbar’s name is spelled this way in various filings on the District Court docket.
\

oase:

zu-oh-oo

uouumeru: zz-z

rneu.

iz/i//zuzu

rdyc. «j

No. 20-3483

-3On appeal, Jabbar argues that Judge Grabam should be liable because be acted under tbe
color of law.

She cites 18 U.S.C. § 242, a criminal statute prohibiting violating a person’s

constitutional rights under color of law.
We review de novo a district court’s dismissal of a complaint under the doctrine ofjudicial
immunity. See Leech v. DeWeese, 689 F.3d 538, 541-42 (6th Cir. 2012). Federal judges are
absolutely immune from suit “for their ‘judicial acts,’ unless performed ‘in the clear absence of all
jurisdiction.’” Alexander v. Rosen, 804 F.3d 1203, 1208 (6th Cir. 2015) (quoting Stump v.
/

Sparkman, 435 U.S. 349, 356-57 (1978)).

C' sf‘

Jabbar’s claims derive from the criminal proceedings before Judge Graham.

In her

appellate brief, she* alleges that the judge “was performing normally in [his] judicial capacity.”
She also cites to the criminal civil rights statute and asserts that Judge Graham was acting under
color of law. Therefore, her claims concern Judge Graham’s judicial acts. And she did not allege,
nor is it the case, that Judge Graham somehow lacked jurisdiction in the Forrest forfeiture
proceedings. See 28 U.S.C. § 2461(c). Therefore, the district court correctly held that Jabbar’s
suit was barred by the doctrine of judicial immunity.
Jabbar also moves for the appointment of counsel. But there is no constitutional right to
be appointed counsel in a civil case, see Glover v. Johnson, 75 F.3d 264,268 (6th Cir. 1996), and
she cites no exceptional circumstances that would justify appointment in her appeal here, see
Lavado v. Keohane, 992 F.2d 601, 605-06 (6th Cir. 1993).
Accordingly, we DENY the motion for counsel and AFFIRM the district court’s
judgment.

ENTERED BY ORDER OF THE COURT
i

Deborah S. Hunt, Clerk

Case: l:20-cv-00245-MWM-SKB Doc #; 12 Filed: 04/28/20 Page: 1 of 2 PAGEID #: 68

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION - CINCINNATI
HAKIMAH JABBAR,
Plaintiff,

Case No'.1:20-cv7245

' >

Judge Matthew W. McFarland

v.

JAMES L. GRAHAM,
Defendant.

ENTRY AND ORDER ADOPTING REPORT AND RECOMMENDATIONS (Doc. 7)
This case is before the Court on Plaintiffs Objection (Doc. 11) to Magistrate Judge
Stephanie K. Bowman's Report and Recommendations (Doc. 7). The Magistrate Judge
recommends that Defendants' Motion to Dismiss (Doc. 2) should be granted. Plaintiff
filed an Objection to the Report and Recommendations (Doc. 11), making this matter
now-ripe forireview.

*

As required by 28 U.S.C. § 636(b) and Fed. R. Civ. P. 72(b), the Court has made a
de novo review of the record in this case. Upon said review, the Court finds that
Plaintiff's Objection (Doc. 11) is not well-taken and is accordingly OVERRULED. The
Court hereby ADOPTS the Report and Recommendations (Doc. 7) in its entirety.
Defendants' Motion to Dismiss (Doc. 2) is therefore GRANTED. Furthermore, the
Court certifies under 28 U.S.C. § 1915(a)(3) that for the reasons identified in the Report
and Recommendations, an appeal of this Order would not be taken in good faith.

Case: l:20-cv- 00245-MWM-SKB Doc #: 12 Filed: 04/28/20 Page: 2 of 2 PAGEID #

: 69

IT IS SO ORDERED.
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
By-' _ /s/Matthew W. McFarland________
JUDGE MATTHEW W. McFARLAND

.< .

2

Case: l:20-cv-00245-MWM-SKB Doc #: 7 Filed: 04/03/20 Page: 1 of 4 PAGEID #: 28

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
HAKIMAH JABBOR,
Civil Action No. 1:20-cv-245
Plaintiff,

McFarland, J.
Bowman, M.J

vs.
JAMES GRAHAM
Defendants.

REPORT AND RECOMMENDATION
Plaintiff Hakimah Jabbor, a resident of Columbus, Ohio brought a state court action
against United States District Judge James Graham by filing a Petition for Civil Stalking
Production Order. (Doc. 1) The matter was removed to federal court and is now before
the Court on Defendant's motion to dismiss. (Doc. 2). To date, Plaintiff has failed to file
a memorandum in opposition to the motion to dismiss. For the reasons that follow, the
motion to dismiss should be granted.
Plaintiffs pro se petition arises from a criminal;forfeiture,proceeding pending
before Judge Graham. See United States v. Deandre Forrest, Case No. 2:17-cr0158-1
(S.D. Ohio).1 Pursuant to a Preliminary Order of Forfeiture entered in that case, plaintiff
filed a third-party petition claiming an interest in the property subject to the Order. (Id.
Doc. 56). On January 16, 2018, Judge Graham granted the United States’ Motion to
Dismiss Jabbar’s forfeiture petition for failure to comply with 21 U.S.C. § 853(n). (Order,

1 Federal Courts may take judicial notice of proceedings in other courts of record. See Rodic v. Thistledown Racing
Club, Inc., 615 F.2d 736, 738 (6th Cir. 1980)(quoting Grandader v. Public Bank, 417 F.2d 75, 82, 83 (6th Cir. 1969)).
See also National Union Fire Ins. Co. v. VP Bldgs., Inc., 606 F. 3d 835,839 n.2 (6th Cir. 2010J; Lyons v. Stovall 188
F.3d 327,333 n. 3 (6th Cir. 1999).

Case: l:20-cv-00245-MWM-SKB Doc #: 7 Filed: 04/03/2d;Pagef'2 of 4

ECF No. 77.) The Court issued a final order of forfeiture
No. 107.)

PAGEID #: 29

on July 30, 2018. (Order, ECF

'

Thereafter, on January 17, 2020, Jabbar filed a second Petition for a Civil Stalking
Protection Order in the Franklin County Court of Common Pleas. (Petition

ECF No. 1-1.)

The Petition asserts that Judge Graham “has used gov!t (sic) agencies and officials to
steal my title, rights, and judicial claim to the forfeiture property of Deandre Forrest 17-cr158.... Id. Jabbar’s Petition also includes allegations that Judge Graham “used agents
for local churches to send mail to my house that was meant for the prosecutor.” Id.
Jabbar’s Petition for an immediate Civil Stalking Protection Order was denied.
Franklin County Court of Common Pleas, however, set a full hearing

The

on the Petition for

February 26, 2020. On February 21, 2020, Judge Graham removed Jabbar’s Petition to
this Court pursuant to 28 U.S.C. § 1442.
Plaintiffs petition should be dismissed because it seeks relief from

a defendant

who is immune from such relief. Plaintiffs claims against Judge Graham are barred by
judicial immunity. Judges are afforded absolute immunity from liability for actions taken
while functioning within their judicial capacity. “Like other forms of official immunity,
judicial immunity is an immunity from suit, not just from ultimate assessment of damages.”
Mireles v. Waco, 502 U.S. 9, 11 (1991); Pierson v. Ray, 386 U.S. 547 (1967); Barrett v.
Harrington, 130 F3d 246, 255 (6* Cir. 1997). Judges retain absolute immunity from
liability even, if ;they act maliciously or corruptly, as long as they are. performing judicial
acts and have jurisdiction over the subject matter giving rise to the suit against them.
Stump v. Sparkman, 435 U.S. 349, 356-57 (1978). See also Brookings

v. Clunk, 389

F.3d 614, 617 (6th Cir. 2004); Stern v. Mascio, 262 F. 3d 600, 607 (6th Cir. 2001)

2

. It is

Case; l;20-cV'd0245-MWM-SKB Doc #; 7 Filed: 04/03/20 Page: 3 of 4 PAGEID #: 30
-' V

clear that the decisions made by Judge Graham in the federal forfeiture proceeding were
functions normally performed by judges. Stump, 435 U.S. at 362. Plaintiff’s state court
petition related solely to the forfeiture proceedings in Case No. 2:17-cr-158-1 and did not
address any non-judicial or personal acts by Judge Graham. In addition, plaintiff has
alleged no facts indicating that Judge Graham acted “in the complete absence of all
jurisdiction” in dismissing plaintiffs third-party petition claiming an interest in the property
subject to the Preliminary Order of Forfeiture. See Stern, 262 F.3d at 607. Therefore,
Judge Graham is absolutely immune from civil liability in this matter.

Accordingly,

Defendants motion to dismiss should be granted because Plaintiff’s petition seeks relief
from a defendant who is immune from suit.
In light of the foregoing, it is therefore RECOMMENDED that Defendant’? motion
to dismiss (Doc. 2) be GRANTED. It is further RECOMMENDED that the Court certify
pursuant to 28 U.S.C. § 1915(a) that for the foregoing reasons an appeal of any Order
adopting this Report and Recommendation would not be taken in good faith and
therefore deny Plaintiff leave to appeal in forma pauperis. Plaintiff remains free to apply
to proceed in forma pauperis in the Court of Appeals. See Callihan v. Schneider, 178
F.3d 800, 803 (6th Cir. 1999), overruling in part Floyd v. JJnited States PostaiServ., 105
F.3d 274, 277 (6th Cir. 1997).

.

r

s/Steohanie K. Bowman
Stephanie K. Bowman
United States Magistrate Judge

Z

3

Case: l:20-cv-00245-MWM-SKB Doc #: 7 Filed: 04/03/20 Page: 4 of 4 PAGEID #: 31

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION

,

HAKIMAH JABBOR,
Civil Action No. 1:20-cv-245
Plaintiff,

McFarland, J.
Bowman, M.J

vs.
JAMES GRAHAM,
Defendants.

."V

NOTICE
Pursuant to Fed. R. Civ. P. 72(b), any party may'serve''arid file specific, written
objections to this Report & Recommendation (“R&R”) within FOURTEEN (14) DAYS after
being served with a copy thereof. That period may be extended further by the Court on
timely motion by either side for an extension of time. All objections shall specify the
portion(s) of the R&R objected to, and shall be accompanied by a memorandum of law in
support of the objections. A party shall respond to an opponent’s objections within
FOURTEEN DAYS after being served with a copy of those‘objections. Failure^to make
objections in accordance with this procedure may forfeit rights on appeal. See Thomas
V. Arn, 474 U.S. 140 (1985); United States v. Walters, 638 F.2d 947 (6th Cir. 1981).

*• r

V'

4

Case: 2:17-cr-0.0158-JLG Doc #: 65 Filed: 01/03/18 Page: 1 of 3 PAGEID #: 231
'-A
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
UNITED STATES OF AMERICA,
2:17-cr-158(l)
JUDGE GRAHAM

Plaintiff,
v.
DEANDRE FORREST,
Defendant.

PRELIMINARY ORDER OF FORFEITURE
WHEREAS, a federal grand jury sitting in Columbus, Ohio, returned an Indictment (Doc.
15) charging Defendant Deandre Forrest, and others not named herein, with violations of 18
U.S.C. § 922, 18 U.S.C. .§ 924, 21 U.S.C. § 841 et seq., and 21 UlS.C. § 846. The Indictment
^ •

also included a forfeiture allegation, Forfeiture A, notifying Defendant Deandre Forrest of the
United States’ intent to forfeit, pursuant to 21 U.S.C. § 853(a)(1) and (2), all proceeds obtained,
directly or indirectly, from the distribution and possession with intent to distribute cocaine base,
in violation of 21 U.S.C. § 841(a)(1), and ally property used, Qr'intended to be used to commit, or
facilitate the commission of such violations, including but not limited to jewelry and $28,223.00
in United States Currency seized on June 15, 2017, from 1 ]97; S. 22 Street, Columbus, Ohio,
during the execution of a search warrant and;

WHEREAS, on December 14, 2017, the jury returned a verdict against Defendant
Deandre Forrest finding him guilty of conspiracy to distribute controlled substances in violation
of 21 U.S.C. § 846, possession and distribution of controlled substances in violation of 21 U.S.C.
§ 841 et seq., and possession of a firearm in furtherance of a drug trafficking crime in violation
of 18 U.S,£4 924(c); and,

;

•.

Case : 2:17-cr-0'0158-JLG Doc #: 65 Filed; 01/03/18 Page

: 2 of 3 PAG El D #: 232
t •

1

WHEREAS, on December 15, 2017, this Court issued an Order (Doc. 61) finding that,
based upon the record at trial, the property described in Forfeiture A of the Indictment, being
jewelry1 and $28,223.00 in United States Currency, is property constituting or derived from
result of the commission of the offenses alleged in
proceeds obtained directly or indirectly as a
Counts One, Five, and Six of.the Indictment, and is property used or.intended to be used to
commit, or

to facilitate the commission of the offenses alleged in Counts One, Five, and Six of

the Indictment; and,
WHEREAS, based upon the Indictment, guilty verdict, and evidence presented at trial,
the Court has determined that the requisite nexus exists between the $28,223.00 in United States
Currency described in Forfeiture A of the Indictment (“subject property”) and Counts One, Five,
and. Six of the Indictment, that the subject property is forfeitable pursuant to 21 U.S.C.
§ 853(a)(1) and (2), and that the United States is now entitled-to possession of the, subject
/'“'N

property.

4

Accordingly, IT IS HEREBY ORDERED, ADJUDGED AND DECREED:
1.

That Defendant Deandre Forrest shall forfeit the following subject property to the

United States:
Twenty-Eight Thousand Two Hundred Twenty-Three and 00/100
Dollars ($28,223.00) in United States Currency.
*

2.

•> .

..

....

That the United States|Marshals Service shall immediately seize the subject

property and hold same in,his secure custody and control.

*0

will not seek forfeiture of any jewelry seized on June 15,2017, from 1197 s. 22

-

2

•p

Case: 2:17-cr-00158-JLG Doc#: 65 Filed: 01/03/18 Page: 3 of 3 PAGE1D #, 233
"■H

3.

That the United States is authorized to conduct any discovery proper in

identifying, locating or disposing of the subject property in accordance with Fed. R. Crim. P.
32.2(b)(3).
. 4.

That the United States shall publish, in accordance with the provisions of 21

U.S.C. § 853(n) , notice of this Order and notice of its .intent to dispose of the subject property in
such manner as the Attorney General may direct.
5.

That the United States shall also provide written notice to any person who

reasonably' appears to be a potential claimant with standing to contest the forfeiture in the
an ciliary proceeding in accordance with Fed. R. Crim, P. 32.2(b)(6).
6.

That pursuant to Fed. R. Crim. P. 32.2(b)(4), this Preliminary Order of Forfeiture

shall become final as to Defendant Deandre Forrest at the time of sentencing and shall be made

/A

part of the sentence and included in the judgment. If no third party files a timely claim, this
Order shall become the Final Order of Forfeiture, as provided by Fed. R. Crim. P. 32.2(c)(2).
7.

That, following the Court’s disposition of all.petitions filed pursuant to 21 U.S.C.

§ 853(n), or, if no such petitions are filed, following the expiration of the period for the filing of
such petitions, the United States shall have clear title to the subject property.
8.

That the Court shall retain jurisdiction to enforce this Order, and to amend it as

necessary, pursuant to Fed. R. Crim. P. 32.2(e).

■ t ’

Date: January 3, 2018
s/James L. Graham
JAMES L. GRAHAM ...
* ,
UNITED STATES DISTRICT JUDGE

Va

3

Case: 2:17-cr-00158-JLG-KAJ Doc #:*107 Hiea:

u//ou/j.o rayc,

X VI v

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
UNITED STATES OF AMERICA,

2:17-cr-158(l)
JUDGE GRAHAM

Plaintiff,
v.

DEANDRE FORREST,
Defendant.
FTNAI, ORDER OF FORFEITURE
WHEREAS, on January 3,2018, the Court entered a Preliminary Order of Forfeiture (Doe.
65) ordering Defendant Deandre Forrest to forfeit to the United States the property subject to
forfeiture in the forfeiture allegation, Forfeiture A, of the Indictment under 21 U.S.C. § 853(a)(1)
and (2); and
WHEREAS, on June 20, 2018, the Court issued its Amended Judgment (Doe. 105)
ordering Defendant Deandre Forrest to forfeit to the United States the property described herein;
and
whereas;

for 30 consecutive days, beginning on January 11, 2018, the United States

published notice of this forfeiture on the government’s website, www.forfeiture.gov, which
provided potential claimants notice of the United States’ intent to dispose of the forfeited property
in accordance with the law and of their right to petition the court within 60 days of the initial
publication date for a hearing to adjudicate the validity of their alleged interest in the forfeited
t

property. (See Doc. 87); and

r„cu. U//JU/J.a Page: 2 of 3 PAGEID #; 544
\

V,;

WHEREAS, the United States provided direct

written notice of this action along with a

copy of the Preliminary Order of Forfeiture to Hakimah Jabbar, a

person known to the United

States to. have a potential interest in the subject property; and
WHEREAS, on December .14, 2017, Hakimah Jabbar filed a “
a Petition for a Hearing to
Adjudicate the Interest in the Property ” (See Doe. 56.) On Januaiy 16
,2018, the Court issued an
Order dismissing Hakimah. Jabbar’s filing for failure to
comply with 21 U.S.C. § 853(n)(3). (See
Doc. 77); and
WHEREAS, no other petitions asserting a legal interest in the forfeited p

roperty were filed

and the time for the filing of such petitions has expired; and
WHEREAS, the Court finds that th

e property is subject to forfeiture under 21 U.S.C.

§ 853(a)(1) and (2), for violations of
of 21 U.S.C. § 841 and 21 U.S.C. § 846.

NOW THEREFORE, IT IS HEREBY ORDERED,
1.

That all right, title, and interest in

FORFEITED to the United States of America,

ADJUDGED, AND DECREED;

and to the following property is hereby

said property being described as:

Twenty-Eight Thousand Two Hundred
($28,223.00) in United States currency. Twenty-Three and 00/100 Dollars
2.

That the United States Matshais Service, or their designated agent, sha„ dispose of

the property according to law.

2

Case: 2:17-cr-00158-JLG-KAJ

3.

uoctf: iu t

i-neu.

UUOUI1U I lAyw, W.

That any and all claims and interests in

and to the above described forfeited

prOpe tty ate forever barred and no right, title or interest in the forfeited property shall east in any
other person or entity, and the United States of America shall have dear title to said property and
may warrant good title thereto.
ORDERED this

day of

,2011

HONORABLE JAMES L. GRAHAM
UNl'fiSsTATES DISTRICT COURT JUDGE

Respectfully submitted,
BENJAMIN C. GLASSMAN
United States Attorney
s/Noah R. Litton
NOAH R. LITTON (0090479)
DAVID M. DeVILLERS (0059456)
Assistant United States Attorneys
Attorneys for Plaintiff
r ^

3

Additional material
from this filing is
available in the
Clerk's Office.

'-Y

